<html>
<title> - MARKUP OF H.R. 4975 LOBBYING ACCOUNTABILITY AND TRANSPARENCY ACT OF 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                          MARKUP OF H.R. 4975
                      LOBBYING ACCOUNTABILITY AND
                        TRANSPARENCY ACT OF 2006

=======================================================================

                                 MARKUP

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 6, 2006

                               __________

      Printed for the use of the Committee on House Administration





                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

27-925                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                   COMMITTEE ON HOUSE ADMINISTRATION

                        VERNON EHLERS, Chairman
ROBERT W. NEY, Ohio                  JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California
CANDICE MILLER, Michigan               Ranking Minority Member
JOHN T. DOOLITTLE, California        ROBERT A. BRADY, Pennsylvania
THOMAS M. REYNOLDS, New York         ZOE LOFGREN, California

                           Professional Staff

                      Will Plaster, Staff Director
                George Shevlin, Minority Staff Director


 MARKUP OF H.R. 4975, LOBBYING ACCOUNTABILITY AND TRANSPARENCY ACT OF 
                                  2006

                        THURSDAY, APRIL 6, 2006

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:04 p.m., in room 
1310, Longworth House Office Building, Hon. Vernon J. Ehlers 
(chairman of the committee) presiding.
    Present: Representatives Ehlers, Ney, Mica, Doolittle, 
Reynolds, Miller, Millender-McDonald, and Brady.
    Staff Present: George Shevlin, Minority Staff Director; 
Charles Howell, Minority Chief Counsel; Thomas Hicks, Minority 
Professional Staff; Matt Pinkus, Minority Professional Staff; 
and Janelle Hu, Minority Professional Staff; Jeff Janas, 
Professional Staff Member; Audrey Perry, Counsel; Paul 
Vinovich, Director of Legislative Operations.
    The CHAIRMAN. I would like to call the Committee to order. 
The Committee is now in order for the purpose of the 
consideration of H.R. 4975, the Lobbying Accountability and 
Transparency Act of 2006.
    The Committee has received referrals on the following 
titles and sections: Section 301, in title III, title IV; 
section 502 in title V, title VI and title VII. Last evening, 
the House approved the language of Title VI when it adopted 
H.R. 513 by a vote of 218 to 209.
    As I understand, there will be some amendments offered by 
the Minority today. I had tentatively planned to submit an 
amendment of my own as well. I have decided instead not to 
offer it at this time but offer it for consideration of the 
Rules Committee at some later time.
    So the business before us will be to receive the amendments 
that will be introduced by the Minority, to discuss and dispose 
of those amendments, and then refer the bill to the Committee 
on Rules where we will continue.
    So the Chair lays before the Committee the bill, H.R. 4975.
    [The information follows:]

    A BILL To provide greater transparency with respect to lobbying 
                  activities, and for other purposes.
  Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE; TABLE OF CONTENTS.

  (a) Short Title.--This Act may be cited as the ``Lobbying 
Accountability and Transparency Act of 2006''.
  (b) Table of Contents.--The table of contents for this Act is as 
follows:

Sec. 1. Short title; table of contents.

                 TITLE I--ENHANCING LOBBYING DISCLOSURE

Sec. 101. Quarterly filing of lobbying disclosure reports.
Sec. 102. Electronic filing of lobbying registrations and disclosure 
          reports.
Sec. 103. Public database of lobbying disclosure information.
Sec. 104. Disclosure by registered lobbyists of past executive branch 
          and congressional employment.
Sec. 105. Disclosure of lobbyist contributions and gifts.
Sec. 106. Increased penalty for failure to comply with lobbying 
          disclosure requirements.

                  TITLE II--SLOWING THE REVOLVING DOOR

Sec. 201. Notification of post-employment restrictions.
Sec. 202. Disclosure by Members of the House of Representatives of 
          employment negotiations.
Sec. 203. Wrongfully influencing, on a partisan basis, an entity's 
          employment decisions or practices.

TITLE III--SUSPENSION OF PRIVATELY-FUNDED TRAVEL; CURBING LOBBYIST GIFTS

Sec. 301. Suspension of privately-funded travel.
Sec. 302. Recommendations on gifts and travel.
Sec. 303. Prohibiting registered lobbyists on corporate flights.
Sec. 304. Valuation of tickets to sporting and entertainment events.

             TITLE IV--OVERSIGHT OF LOBBYING AND ENFORCEMENT

Sec. 401. Audits of lobbying reports by House Inspector General.
Sec. 402. House Inspector General review and annual reports.

                     TITLE V--INSTITUTIONAL REFORMS

Sec. 501. Earmarking reform.
Sec. 502. Frequent and comprehensive ethics training.
Sec. 503. Biennial publication of ethics manual.

              TITLE VI--REFORM OF SECTION 527 ORGANIZATIONS

Sec. 601. Short title.
Sec. 602. Treatment of section 527 organizations.
Sec. 603. Rules for allocation of expenses between Federal and non-
          Federal activities.
Sec. 604. Repeal of limit on amount of party expenditures on behalf of 
          candidates in general elections.
Sec. 605. Construction.
Sec. 606. Judicial review.
Sec. 607. Severability.

              TITLE VII--FORFEITURE OF RETIREMENT BENEFITS

Sec. 701. Loss of pensions accrued during service as a Member of 
          Congress for abusing the public trust.

                 TITLE I--ENHANCING LOBBYING DISCLOSURE

SEC. 101. QUARTERLY FILING OF LOBBYING DISCLOSURE REPORTS.

  (a) Quarterly Filing Required.--Section 5 of the Lobbying Disclosure 
Act of 1995 (in this title referred to as the ``Act'') (2 U.S.C. 1604) 
is amended--
          (1) in subsection (a)--
                  (A) in the heading, by striking ``Semiannual'' and 
                inserting ``Quarterly'';
                  (B) by striking ``45'' and inserting ``20'';
                  (C) by striking ``the semiannual period'' and all 
                that follows through ``July of each year'' and insert 
                ``the quarterly period beginning on the first day of 
                January, April, July, and October of each year''; and
                  (D) by striking ``such semiannual period'' and insert 
                ``such quarterly period''; and
          (2) in subsection (b)--
                  (A) in the matter preceding paragraph (1), by 
                striking ``semiannual report'' and inserting 
                ``quarterly report'';
                  (B) in paragraph (2), by striking ``semiannual filing 
                period'' and inserting ``quarterly period'';
                  (C) in paragraph (3), by striking ``semiannual 
                period'' and inserting ``quarterly period''; and
                  (D) in paragraph (4), by striking ``semiannual filing 
                period'' and inserting ``quarterly period''.
  (b) Conforming Amendments.--
          (1) Definition.--Section 3(10) of the Act (2 U.S.C. 1602) is 
        amended by striking ``six month period'' and inserting ``3-
        month period''.
          (2) Registration.--Section 4 of the Act (2 U.S.C. 1603) is 
        amended--
                  (A) in subsection (a)(3)(A), by striking ``semiannual 
                period'' and inserting ``quarterly period''; and
                  (B) in subsection (b)(3)(A), by striking ``semiannual 
                period'' and inserting ``quarterly period''.
          (3) Enforcement.--Section 6(6) of the Act (2 U.S.C. 1605(6)) 
        is amended by striking ``semiannual period'' and inserting 
        ``quarterly period''.
          (4) Estimates.--Section 15 of the Act (2 U.S.C. 1610) is 
        amended--
                  (A) in subsection (a)(1), by striking ``semiannual 
                period'' and inserting ``quarterly period''; and
                  (B) in subsection (b)(1), by striking ``semiannual 
                period'' and inserting ``quarterly period''.
          (5) Dollar amounts.--
                  (A) Registration.--Section 4 of the Act (2 U.S.C. 
                1603) is amended--
                          (i) in subsection (a)(3)(A)(i), by striking 
                        ``$5,000'' and inserting ``$2,500'';
                          (ii) in subsection (a)(3)(A)(ii), by striking 
                        ``$20,000'' and inserting ``$10,000'';
                          (iii) in subsection (b)(3)(A), by striking 
                        ``$10,000'' and inserting ``$5,000''; and
                          (iv) in subsection (b)(4), by striking 
                        ``$10,000'' and inserting ``$5,000''.
                  (B) Reports.--Section 5 of the Act (2 U.S.C. 1604) is 
                amended--
                          (i) in subsection (c)(1), by striking 
                        ``$10,000'' and ``$20,000'' and inserting 
                        ``$5,000'' and ``$10,000'', respectively; and
                          (ii) in subsection (c)(2), by striking 
                        ``$10,000'' both places such term appears and 
                        inserting ``$5,000''.

SEC. 102. ELECTRONIC FILING OF LOBBYING REGISTRATIONS AND DISCLOSURE 
                    REPORTS.

  (a) Registrations.--Section 4 of the Act (2 U.S.C. 1603) in amended--
          (1) by redesignating subsection (d) as subsection (e); and
          (2) by inserting after subsection (c) the following:
  ``(d) Electronic Filing Required.--A registration required to be 
filed under this section on or after the date of enactment of the 
Lobbying Accountability and Transparency Act of 2006 shall be filed in 
electronic form, in addition to any other form that may be required by 
the Secretary of the Senate or the Clerk of the House of 
Representatives. The due date for a registration filed in electronic 
form shall be no later than the due date for a registration filed in 
any other form.''.
  (b) Reports.--Section 5 of the Act (2 U.S.C. 1604) is amended by 
adding at the end the following:
  ``(d) Electronic Filing Required.--
          ``(1) In general.--A report required to be filed under this 
        section shall be filed in electronic form, in addition to any 
        other form that may be required by the Secretary of the Senate 
        or the Clerk of the House of Representatives. The due date for 
        a report filed in electronic form shall be no later than the 
        due date for a report filed in any other form, except as 
        provided in paragraph (2).
          ``(2) Extension of time to file in electronic form.--The 
        Secretary of the Senate or the Clerk of the House of 
        Representatives may establish a later due date for the filing 
        of a report in electronic form by a registrant, if and only 
        if--
                  ``(A) on or before the original due date, the 
                registrant--
                          ``(i) timely files the report in every form 
                        required, other than electronic form; and
                          ``(ii) makes a request for such a later due 
                        date to the Secretary or the Clerk, as the case 
                        may be; and
                  ``(B) the request is supported by good cause 
                shown.''.

SEC. 103. PUBLIC DATABASE OF LOBBYING DISCLOSURE INFORMATION.

  (a) Database Required.--Section 6 of the Act (2 U.S.C. 1605) is 
amended--
          (1) in paragraph (7), by striking ``and'' at the end;
          (2) in paragraph (8), by striking the period and inserting 
        ``; and''; and
          (3) by adding at the end the following:
          ``(9) maintain, and make available to the public over the 
        Internet, without a fee or other access charge, in a 
        searchable, sortable, and downloadable manner, an electronic 
        database that--
                  ``(A) includes the information contained in 
                registrations and reports filed under this Act; and
                  ``(B) is searchable and sortable, at a minimum, by 
                each of the categories of information described in 
                section 4(b) or 5(b).''.
  (b) Availability of Reports.--Section 6(4) of the Act is amended by 
inserting before the semicolon the following: ``and, in the case of a 
registration filed in electronic form pursuant to section 4(d) or a 
report filed in electronic form pursuant to section 5(d), shall make 
such registration or report (as the case may be) available for public 
inspection over the Internet not more than 48 hours after the 
registration or report (as the case may be) is approved as received by 
the Secretary of the Senate or the Clerk of the House of 
Representatives (as the case may be)''.
  (c) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as may be necessary to carry out paragraph (9) 
of section 6 of the Act, as added by subsection (a) of this section.

SEC. 104. DISCLOSURE BY REGISTERED LOBBYISTS OF PAST EXECUTIVE BRANCH 
                    AND CONGRESSIONAL EMPLOYMENT.

  Section 4(b)(6) of the Act (2 U.S.C. 1603) is amended by striking ``2 
years'' and inserting ``7 years''.

SEC. 105. DISCLOSURE OF LOBBYIST CONTRIBUTIONS AND GIFTS.

  (a) In General.--Section 5(b) of the Act (2 U.S.C. 1604(b)) is 
amended--
          (1) in paragraph (4), by striking ``and'' after the 
        semicolon;
          (2) in paragraph (5), by striking the period and inserting a 
        semicolon; and
          (3) by adding at the end the following:
          ``(6) for each registrant (and for any political committee, 
        as defined in 301(4) of the Federal Election Campaign Act of 
        1971 (2 U.S.C. 431(4)), affiliated with such registrant), and 
        for each employee listed as a lobbyist by a registrant under 
        paragraph (2)(C), the name of each Federal candidate or 
        officeholder, and of each leadership PAC, political party 
        committee, or other political committee to whom a contribution 
        was made which is required to be reported to the Federal 
        Election Commission by the recipient, and the date and amount 
        of such contribution; and
          ``(7) the date, recipient, and amount of any gift that under 
        the Rules of the House of Representatives counts towards the 
        cumulative annual limit described in such rules and is given by 
        a registrant or employee listed as a lobbyist to a covered 
        legislative branch official.''.
  (b) Conforming Amendment.--Section 3 of the Act (2 U.S.C. 1602) is 
amended by adding at the end the following new paragraphs:
          ``(17) Gift.--The term `gift' means a gratuity, favor, 
        discount, entertainment, hospitality, loan, forbearance, or 
        other item having monetary value. The term includes gifts of 
        services, training, and meals whether provided in kind, by 
        purchase of a ticket, payment in advance, or reimbursement 
        after the expense has been incurred.
          ``(18) Leadership PAC.--The term `leadership PAC' means, with 
        respect to an individual holding Federal office, an 
        unauthorized political committee (as defined in the Federal 
        Election Campaign Act of 1971) which is associated with such 
        individual.''.

SEC. 106. INCREASED PENALTY FOR FAILURE TO COMPLY WITH LOBBYING 
                    DISCLOSURE REQUIREMENTS.

  Section 7 of the Act (2 U.S.C. 1606) is amended by striking 
``$50,000'' and inserting ``$100,000''.

                  TITLE II--SLOWING THE REVOLVING DOOR

SEC. 201. NOTIFICATION OF POST-EMPLOYMENT RESTRICTIONS.

  Section 207(e) of title 18, United States Code, is amended by adding 
at the end the following new paragraph:
          ``(8) Notification of post-employment restrictions.--After a 
        Member of the House of Representatives or an elected officer of 
        the House of Representatives leaves office, or after the 
        termination of employment with the House of Representatives of 
        an employee of the House of Representatives covered under 
        paragraph (2), (3), or (4), the Clerk of the House of 
        Representatives, after consultation with the Committee on 
        Standards of Official Conduct, shall inform the Member, 
        officer, or employee of the beginning and ending date of the 
        prohibitions that apply to the Member, officer, or employee 
        under this subsection, and also inform each office of the House 
        of Representatives with respect to which such prohibitions 
        apply of those dates.''.

SEC. 202. DISCLOSURE BY MEMBERS OF THE HOUSE OF REPRESENTATIVES OF 
                    EMPLOYMENT NEGOTIATIONS.

  The Code of Official Conduct set forth in rule XXIII of the Rules of 
the House of Representatives is amended by redesignating clause 14 as 
clause 15 and by inserting after clause 13 the following new clause:
  ``14. (a) A Member, Delegate, or Resident Commissioner shall file 
with the Committee on Standards of Official Conduct a statement that he 
or she is negotiating compensation for prospective employment or has 
any arrangement concerning prospective employment if a conflict of 
interest or the appearance of a conflict of interest may exist. Such 
statement shall be made within 5 days (other than Saturdays, Sundays, 
or public holidays) after commencing the negotiation for compensation 
or entering into the arrangement.
  ``(b) A Member, Delegate, or Resident Commissioner should refrain 
from voting on any legislative measure pending before the House or any 
committee thereof if the negotiation described in subparagraph (a) may 
create a conflict of interest.''.

SEC. 203. WRONGFULLY INFLUENCING, ON A PARTISAN BASIS, AN ENTITY'S 
                    EMPLOYMENT DECISIONS OR PRACTICES.

  The Code of Official Conduct set forth in rule XXIII of the Rules of 
the House of Representatives (as amended by section 202) is further 
amended by redesignating clause 15 as clause 16 and by inserting after 
clause 14 the following new clause:
  ``15. A Member, Delegate, Resident Commissioner, officer, or employee 
of the House may not, with the intent to influence on the basis of 
political party affiliation an employment decision or employment 
practice of any private or public entity (except for the Congress)--
          ``(a) take or withhold, or offer or threaten to take or 
        withhold, an official act; or
          ``(b) influence, or offer or threaten to influence, the 
        official act of another.''.

  TITLE III--SUSPENSION OF PRIVATELY-FUNDED TRAVEL; CURBING LOBBYIST 
                                 GIFTS

SEC. 301. SUSPENSION OF PRIVATELY-FUNDED TRAVEL.

  Notwithstanding clause 5 of rule XXV of the Rules of the House of 
Representatives, no Member, Delegate, Resident Commissioner, officer, 
or employee of the House may accept a gift of travel (including any 
transportation, lodging, and meals during such travel) from any private 
source.

SEC. 302. RECOMMENDATIONS FROM THE COMMITTEE ON STANDARDS OF OFFICIAL 
                    CONDUCT ON GIFTS AND TRAVEL.

  Not later than December 15, 2006, the Committee on Standards of 
Official Conduct shall report its recommendations on changes to rule 
XXV of the Rules of the House of Representatives to the Committee on 
Rules. In developing such recommendations, the Committee on Standards 
of Official Conduct shall consider the following:
          (1) The ability of the current provisions of rule XXV to 
        protect the House, its Members, officers, and employees, from 
        the appearance of impropriety.
          (2) With respect to the allowance for privately-funded travel 
        contained in clause 5(b) of rule XXV--
                  (A) the degree to which privately-funded travel meets 
                the representational needs of the House, its Members, 
                officers, and employees;
                  (B) whether certain entities should or should not be 
                permitted to fund the travel of the Members, officers, 
                and employees of the House, what sources of funding may 
                be permissible, and what other individuals may 
                participate in that travel; and
                  (C) the adequacy of the current system of approval 
                and disclosure of such travel.
          (3) With respect to the exceptions to the limitation on the 
        acceptance of gifts contained in clause 5(a)--
                  (A) the degree to which those exceptions meet the 
                representational and personal needs of the House, its 
                Members, officers, and employees;
                  (B) the clarity of the limitation and its exceptions; 
                and
                  (C) the suitability of the current dollar limitations 
                contained in clause 5(a)(1)(B) of such rule, including 
                whether such limitations should be lowered.

SEC. 303. PROHIBITING REGISTERED LOBBYISTS ON CORPORATE FLIGHTS.

  The Lobbying Disclosure Act of 1995 is amended by inserting after 
section 5 the following new section:

``SEC. 5A. PROHIBITING REGISTERED LOBBYISTS ON CORPORATE FLIGHTS.

  ``If a Representative in, or Delegate or Resident Commissioner to, 
the Congress or an officer or employee of the House of Representatives 
is a passenger or crew member on a flight of an aircraft not licensed 
by the Federal Aviation Administration to operate for compensation or 
hire that is owned or operated by a person who is the client of a 
lobbyist or a lobbying firm, then such lobbyist may not be a passenger 
or crew member on that flight.''.

SEC. 304. VALUATION OF TICKETS TO SPORTING AND ENTERTAINMENT EVENTS.

  Clause 5(a)(2)(A) of rule XXV of the Rules of the House of 
Representatives is amended by--
          (1) inserting ``(i)'' after ``(A)''; and
          (2) adding at the end the following:
  ``(ii) A gift of a ticket to a sporting or entertainment event shall 
be valued at the face value of the ticket, provided that in the case of 
a ticket without a face value, the ticket shall be valued at the 
highest cost of a ticket with a face value for the event.''.

            TITLE IV--OVERSIGHT OF LOBBYING AND ENFORCEMENT

SEC. 401. AUDITS OF LOBBYING REPORTS BY HOUSE INSPECTOR GENERAL.

  (a) Access to Lobbying Reports.--The Office of Inspector General of 
the House of Representatives shall have access to all lobbyists' 
disclosure information received by the Clerk of the House of 
Representatives under the Lobbying Disclosure Act of 1995 and shall 
conduct random audits of lobbyists' disclosure information as necessary 
to ensure compliance with that Act.
  (b) Referral Authority.--The Office of the Inspector General of the 
House of Representatives may refer potential violations by lobbyists of 
the Lobbying Disclosure Act of 1995 to the Department of Justice for 
disciplinary action.

SEC. 402. HOUSE INSPECTOR GENERAL REVIEW AND ANNUAL REPORTS.

  (a) Ongoing Review Required.--The Inspector General of the House of 
Representatives shall review on an ongoing basis the activities carried 
out by the Clerk of the House of Representatives under section 6 of the 
Lobbying Disclosure Act of 1995 (2 U.S.C. 1605). The review shall 
emphasize--
          (1) the effectiveness of those activities in securing the 
        compliance by lobbyists with the requirements of that Act; and
          (2) whether the Clerk has the resources and authorities 
        needed for effective oversight and enforcement of that Act.
  (b) Annual Reports.--Not later than December 31 of each year, the 
Inspector General of the House of Representatives shall submit to the 
House of Representatives a report on the review required by subsection 
(a). The report shall include the Inspector General's assessment of the 
matters required to be emphasized by that subsection and any 
recommendations of the Inspector General to--
          (1) improve the compliance by lobbyists with the requirements 
        of the Lobbying Disclosure Act of 1995; and
          (2) provide the Clerk of the House of Representatives with 
        the resources and authorities needed for effective oversight 
        and enforcement of that Act.

                     TITLE V--INSTITUTIONAL REFORMS

SEC. 501. EARMARKING REFORM.

  (a) In the House of Representatives, it shall not be in order to 
consider--
          (1) a general appropriation bill reported by the Committee on 
        Appropriations unless the report includes a list of earmarks in 
        the bill or in the report (and the name of any Member who 
        submitted a request to the Committee on Appropriations for an 
        earmark included in such list); or
          (2) a conference report to accompany a general appropriation 
        bill unless the joint explanatory statement prepared by the 
        managers on the part of the House and the managers on the part 
        of the Senate includes a list of earmarks in the conference 
        report or joint statement (and the name of any Member who 
        submitted a request to the Committee on Appropriations for an 
        earmark included in such list) that were--
                  (A) not committed to the conference committee by 
                either House;
                  (B) not in the report specified in paragraph (1); and
                  (C) not in a report of a committee of the Senate on a 
                companion measure.
  (b) In the House of Representatives, it shall not be in order to 
consider a rule or order that waives the application of subsection 
(a)(2).
  (c)(1) A point of order raised under subsection (a) may be based only 
on the failure of a report of the Committee on Appropriations or joint 
statement, as the case may be, to include the list required by 
subsection (a).
  (2) As disposition of a point of order under this section, the Chair 
shall put the question of consideration with respect to the proposition 
that is the subject of the point of order.
  (3) The question of consideration under this subsection shall be 
debatable for 10 minutes by the Member initiating the point of order 
and for 10 minutes by an opponent, but shall otherwise be decided 
without intervening motion except one that the House adjourn.
  (d)(1) For purposes of this section, the term ``earmark'' means a 
provision in a bill, joint resolution, or conference report, or 
language in an accompanying committee report or joint statement of 
managers, providing a specific amount of discretionary budget authority 
to a non-Federal entity, if such entity is identified by name.
  (2) For purposes of paragraph (1), government-sponsored enterprises, 
Federal facilities, and Federal lands shall be considered Federal 
entities.
  (3) For purposes of subsection (a), to the extent that the non-
Federal entity is a unit of State or local government, an Indian tribe, 
or a foreign government, the provision or language shall not be 
considered an earmark unless the provision or language also specifies 
the specific purpose for which the designated budget authority is to be 
expended.

SEC. 502. FREQUENT AND COMPREHENSIVE ETHICS TRAINING.

  (a) Ethics Training.--
          (1) In general.--The Committee on Standards of Official 
        Conduct shall provide ethics training once per Congress to each 
        employee of the House of Representatives, including training on 
        the Code of Official Conduct, related rules of the House of 
        Representatives, and applicable provisions of law.
          (2) New employees.--A new employee of the House of 
        Representatives shall receive training under this section not 
        later than 30 days after beginning service to the House.
          (3) Members.--While the House of Representatives recognizes 
        that adding qualifications to service as a Member may be 
        unconstitutional, it encourages Members to participate in 
        ethics training.
  (b) Certification.--Within 30 days of completing required ethics 
training, each employee of the House of Representatives shall file a 
certification with the Committee on Standards of Official Conduct that 
the employee has completed such training and is familiar with the 
contents of any pertinent publications that are so designated by the 
committee.

SEC. 503. BIENNIAL PUBLICATION OF ETHICS MANUAL.

  Within 120 days after the date of enactment of this Act and during 
each Congress thereafter, the Committee on Standards of Official 
Conduct shall publish an up-to-date ethics manual for Members, 
officers, and employees of the House of Representatives and make such 
manual available to all such individuals. The committee has a duty to 
keep all Members, Delegates, the Resident Commissioner, officers, and 
employees of the House of Representatives apprised of current rulings 
or advisory opinions when potentially constituting changes to or 
interpretations of existing policies.

             TITLE VI--REFORM OF SECTION 527 ORGANIZATIONS

SEC. 601. SHORT TITLE.

  This title may be cited as the ``527 Reform Act of 2006''.

SEC. 602. TREATMENT OF SECTION 527 ORGANIZATIONS.

  (a) Definition of Political Committee.--Section 301(4) of the Federal 
Election Campaign Act of 1971 (2 U.S.C. 431(4)) is amended--
          (1) by striking the period at the end of subparagraph (C) and 
        inserting ``; or''; and
          (2) by adding at the end the following:
                  ``(D) any applicable 527 organization.''.
  (b) Definition of Applicable 527 Organization.--Section 301 of such 
Act (2 U.S.C. 431) is amended by adding at the end the following new 
paragraph:
          ``(27) Applicable 527 organization.--
                  ``(A) In general.--For purposes of paragraph (4)(D), 
                the term `applicable 527 organization' means a 
                committee, club, association, or group of persons 
                that--
                          ``(i) has given notice to the Secretary of 
                        the Treasury under section 527(i) of the 
                        Internal Revenue Code of 1986 that it is to be 
                        treated as an organization described in section 
                        527 of such Code; and
                          ``(ii) is not described in subparagraph (B).
                  ``(B) Excepted organizations.--A committee, club, 
                association, or other group of persons described in 
                this subparagraph is--
                          ``(i) an organization described in section 
                        527(i)(5) of the Internal Revenue Code of 1986;
                          ``(ii) an organization which is a committee, 
                        club, association or other group of persons 
                        that is organized, operated, and makes 
                        disbursements exclusively for paying expenses 
                        described in the last sentence of section 
                        527(e)(2) of the Internal Revenue Code of 1986 
                        or expenses of a newsletter fund described in 
                        section 527(g) of such Code;
                          ``(iii) an organization which is a committee, 
                        club, association, or other group that consists 
                        solely of candidates for State or local office, 
                        individuals holding State or local office, or 
                        any combination of either, but only if the 
                        organization refers only to one or more non-
                        Federal candidates or applicable State or local 
                        issues in all of its voter drive activities and 
                        does not refer to a Federal candidate or a 
                        political party in any of its voter drive 
                        activities; or
                          ``(iv) an organization described in 
                        subparagraph (C).
                  ``(C) Applicable organization.--For purposes of 
                subparagraph (B)(iv), an organization described in this 
                subparagraph is a committee, club, association, or 
                other group of persons whose election or nomination 
                activities relate exclusively to--
                          ``(i) elections where no candidate for 
                        Federal office appears on the ballot; or
                          ``(ii) one or more of the following purposes:
                                  ``(I) Influencing the selection, 
                                nomination, election, or appointment of 
                                one or more candidates to non-Federal 
                                offices.
                                  ``(II) Influencing one or more 
                                applicable State or local issues.
                                  ``(III) Influencing the selection, 
                                appointment, nomination, or 
                                confirmation of one or more individuals 
                                to non-elected offices.
                  ``(D) Exclusivity test.--A committee, club, 
                association, or other group of persons shall not be 
                treated as meeting the exclusivity requirement of 
                subparagraph (C) if it makes disbursements aggregating 
                more than $1,000 for any of the following:
                          ``(i) A public communication that promotes, 
                        supports, attacks, or opposes a clearly 
                        identified candidate for Federal office during 
                        the 1-year period ending on the date of the 
                        general election for the office sought by the 
                        clearly identified candidate (or, if a runoff 
                        election is held with respect to such general 
                        election, on the date of the runoff election).
                          ``(ii) Any voter drive activity during a 
                        calendar year, except that no disbursements for 
                        any voter drive activity shall be taken into 
                        account under this subparagraph if the 
                        committee, club, association, or other group of 
                        persons during such calendar year--
                                  ``(I) makes disbursements for voter 
                                drive activities with respect to 
                                elections in only 1 State and complies 
                                with all applicable election laws of 
                                that State, including laws related to 
                                registration and reporting requirements 
                                and contribution limitations;
                                  ``(II) refers to one or more non-
                                Federal candidates or applicable State 
                                or local issues in all of its voter 
                                drive activities and does not refer to 
                                any Federal candidate or any political 
                                party in any of its voter drive 
                                activities;
                                  ``(III) does not have a candidate for 
                                Federal office, an individual who holds 
                                any Federal office, a national 
                                political party, or an agent of any of 
                                the foregoing, control or materially 
                                participate in the direction of the 
                                organization, solicit contributions to 
                                the organization (other than funds 
                                which are described under clauses (i) 
                                and (ii) of section 323(e)(1)(B)), or 
                                direct disbursements, in whole or in 
                                part, by the organization; and
                                  ``(IV) makes no contributions to 
                                Federal candidates.
                  ``(E) Certain references to federal candidates not 
                taken into account.--For purposes of subparagraphs 
                (B)(iii) and (D)(ii)(II), a voter drive activity shall 
                not be treated as referring to a clearly identified 
                Federal candidate if the only reference to the 
                candidate in the activity is--
                          ``(i) a reference in connection with an 
                        election for a non-Federal office in which such 
                        Federal candidate is also a candidate for such 
                        non-Federal office; or
                          ``(ii) a reference to the fact that the 
                        candidate has endorsed a non-Federal candidate 
                        or has taken a position on an applicable State 
                        or local issue, including a reference that 
                        constitutes the endorsement or position itself.
                  ``(F) Certain references to political parties not 
                taken into account.--For purposes of subparagraphs 
                (B)(iii) and (D)(ii)(II), a voter drive activity shall 
                not be treated as referring to a political party if the 
                only reference to the party in the activity is--
                          ``(i) a reference for the purpose of 
                        identifying a non-Federal candidate;
                          ``(ii) a reference for the purpose of 
                        identifying the entity making the public 
                        communication or carrying out the voter drive 
                        activity; or
                          ``(iii) a reference in a manner or context 
                        that does not reflect support for or opposition 
                        to a Federal candidate or candidates and does 
                        reflect support for or opposition to a State or 
                        local candidate or candidates or an applicable 
                        State or local issue.
                  ``(G) Applicable state or local issue.--For purposes 
                of this paragraph, the term `applicable State or local 
                issue' means any State or local ballot initiative, 
                State or local referendum, State or local 
                constitutional amendment, State or local bond issue, or 
                other State or local ballot issue.''.
  (c) Definition of Voter Drive Activity.--Section 301 of such Act (2 
U.S.C. 431), as amended by subsection (b), is further amended by adding 
at the end the following new paragraph:
          ``(28) Voter drive activity.--The term `voter drive activity' 
        means any of the following activities conducted in connection 
        with an election in which a candidate for Federal office 
        appears on the ballot (regardless of whether a candidate for 
        State or local office also appears on the ballot):
                  ``(A) Voter registration activity.
                  ``(B) Voter identification.
                  ``(C) Get-out-the-vote activity.
                  ``(D) Generic campaign activity.
                  ``(E) Any public communication related to activities 
                described in subparagraphs (A) through (D).
        Such term shall not include any activity described in 
        subparagraph (A) or (B) of section 316(b)(2).''.
  (d) Regulations.--The Federal Election Commission shall promulgate 
regulations to implement this section not later than 60 days after the 
date of enactment of this Act.
  (e) Effective Date.--The amendments made by this section shall take 
effect on the date which is 60 days after the date of enactment of this 
Act.

SEC. 603. RULES FOR ALLOCATION OF EXPENSES BETWEEN FEDERAL AND NON-
                    FEDERAL ACTIVITIES.

  (a) In General.--Title III of the Federal Election Campaign Act of 
1971 (2 U.S.C. 431 et seq.) is amended by adding at the end the 
following:

``SEC. 325. ALLOCATION AND FUNDING RULES FOR CERTAIN EXPENSES RELATING 
                    TO FEDERAL AND NON-FEDERAL ACTIVITIES.

  ``(a) In General.--In the case of any disbursements by any political 
committee that is a separate segregated fund or nonconnected committee 
for which allocation rules are provided under subsection (b)--
          ``(1) the disbursements shall be allocated between Federal 
        and non-Federal accounts in accordance with this section and 
        regulations prescribed by the Commission; and
          ``(2) in the case of disbursements allocated to non-Federal 
        accounts, may be paid only from a qualified non-Federal 
        account.
  ``(b) Costs to Be Allocated and Allocation Rules.--
          ``(1) In general.--Disbursements by any separate segregated 
        fund or nonconnected committee, other than an organization 
        described in section 323(b)(1), for any of the following 
        categories of activity shall be allocated as follows:
                  ``(A) 100 percent of the expenses for public 
                communications or voter drive activities that refer to 
                one or more clearly identified Federal candidates, but 
                do not refer to any clearly identified non-Federal 
                candidates, shall be paid with funds from a Federal 
                account, without regard to whether the communication 
                refers to a political party.
                  ``(B) At least 50 percent, or a greater percentage if 
                the Commission so determines by regulation, of the 
                expenses for public communications and voter drive 
                activities that refer to one or more clearly identified 
                candidates for Federal office and one or more clearly 
                identified non-Federal candidates shall be paid with 
                funds from a Federal account, without regard to whether 
                the communication refers to a political party.
                  ``(C) At least 50 percent, or a greater percentage if 
                the Commission so determines by regulation, of the 
                expenses for public communications or voter drive 
                activities that refer to a political party, but do not 
                refer to any clearly identified Federal or non-Federal 
                candidate, shall be paid with funds from a Federal 
                account, except that this paragraph shall not apply to 
                communications or activities that relate exclusively to 
                elections where no candidate for Federal office appears 
                on the ballot.
                  ``(D) At least 50 percent, or a greater percentage if 
                the Commission so determines by regulation, of the 
                expenses for public communications or voter drive 
                activities that refer to a political party and refer to 
                one or more clearly identified non-Federal candidates, 
                but do not refer to any clearly identified Federal 
                candidates, shall be paid with funds from a Federal 
                account, except that this paragraph shall not apply to 
                communications or activities that relate exclusively to 
                elections where no candidate for Federal office appears 
                on the ballot.
                  ``(E) Unless otherwise determined by the Commission 
                in its regulations, at least 50 percent of any 
                administrative expenses, including rent, utilities, 
                office supplies, and salaries not attributable to a 
                clearly identified candidate, shall be paid with funds 
                from a Federal account, except that for a separate 
                segregated fund such expenses may be paid instead by 
                its connected organization.
                  ``(F) At least 50 percent, or a greater percentage if 
                the Commission so determines by regulation, of the 
                direct costs of a fundraising program or event, 
                including disbursements for solicitation of funds and 
                for planning and administration of actual fundraising 
                events, where Federal and non-Federal funds are 
                collected through such program or event shall be paid 
                with funds from a Federal account, except that for a 
                separate segregated fund such costs may be paid instead 
                by its connected organization. This paragraph shall not 
                apply to any fundraising solicitations or any other 
                activity that constitutes a public communication.
          ``(2) Certain references to federal candidates not taken into 
        account.--For purposes of paragraph (1), a public communication 
        or voter drive activity shall not be treated as referring to a 
        clearly identified Federal candidate if the only reference to 
        the candidate in the communication or activity is--
                  ``(A) a reference in connection with an election for 
                a non-Federal office in which such Federal candidate is 
                also a candidate for such non-Federal office; or
                  ``(B) a reference to the fact that the candidate has 
                endorsed a non-Federal candidate or has taken a 
                position on an applicable State or local issue (as 
                defined in section 301(27)(G)), including a reference 
                that constitutes the endorsement or position itself.
          ``(3) Certain references to political parties not taken into 
        account.--For purposes of paragraph (1), a public communication 
        or voter drive activity shall not be treated as referring to a 
        political party if the only reference to the party in the 
        communication or activity is--
                  ``(A) a reference for the purpose of identifying a 
                non-Federal candidate;
                  ``(B) a reference for the purpose of identifying the 
                entity making the public communication or carrying out 
                the voter drive activity; or
                  ``(C) a reference in a manner or context that does 
                not reflect support for or opposition to a Federal 
                candidate or candidates and does reflect support for or 
                opposition to a State or local candidate or candidates 
                or an applicable State or local issue.
  ``(c) Qualified Non-Federal Account.--
          ``(1) In general.--For purposes of this section, the term 
        `qualified non-Federal account' means an account which consists 
        solely of amounts--
                  ``(A) that, subject to the limitations of paragraphs 
                (2) and (3), are raised by the separate segregated fund 
                or nonconnected committee only from individuals, and
                  ``(B) with respect to which all requirements of 
                Federal, State, or local law (including any law 
                relating to contribution limits) are met.
          ``(2) Limitation on individual donations.--
                  ``(A) In general.--A separate segregated fund or 
                nonconnected committee may not accept more than $25,000 
                in funds for its qualified non-Federal account from any 
                one individual in any calendar year.
                  ``(B) Affiliation.--For purposes of this paragraph, 
                all qualified non-Federal accounts of separate 
                segregated funds or nonconnected committees which are 
                directly or indirectly established, financed, 
                maintained, or controlled by the same person or persons 
                shall be treated as one account.
          ``(3) Fundraising limitation.--
                  ``(A) In general.--No donation to a qualified non-
                Federal account may be solicited, received, directed, 
                transferred, or spent by or in the name of any person 
                described in subsection (a) or (e) of section 323.
                  ``(B) Funds not treated as subject to act.--Except as 
                provided in subsection (a)(2) and this subsection, any 
                funds raised for a qualified non-Federal account in 
                accordance with the requirements of this section shall 
                not be considered funds subject to the limitations, 
                prohibitions, and reporting requirements of this Act 
                for any purpose (including for purposes of subsection 
                (a) or (e) of section 323 or subsection (d)(1) of this 
                section).
  ``(d) Definitions.--
          ``(1) Federal account.--The term `Federal account' means an 
        account which consists solely of contributions subject to the 
        limitations, prohibitions, and reporting requirements of this 
        Act. Nothing in this section or in section 323(b)(2)(B)(iii) 
        shall be construed to infer that a limit other than the limit 
        under section 315(a)(1)(C) applies to contributions to the 
        account.
          ``(2) Nonconnected committee.--The term `nonconnected 
        committee' shall not include a political committee of a 
        political party.
          ``(3) Voter drive activity.--The term `voter drive activity' 
        has the meaning given such term in section 301(28).''.
  (b) Reporting Requirements.--Section 304(e) of the Federal Election 
Campaign Act of 1971 (2 U.S.C. 434(e)) is amended--
          (1) by redesignating paragraphs (3) and (4) as paragraphs (4) 
        and (5); and
          (2) by inserting after paragraph (2) the following new 
        paragraph:
          ``(3) Receipts and disbursements from qualified non-federal 
        accounts.--In addition to any other reporting requirement 
        applicable under this Act, a political committee to which 
        section 325(a) applies shall report all receipts and 
        disbursements from a qualified non-Federal account (as defined 
        in section 325(c)).''.
  (c) Regulations.--The Federal Election Commission shall promulgate 
regulations to implement the amendments made by this section not later 
than 180 days after the date of enactment of this Act.
  (d) Effective Date.--The amendments made by this section shall take 
effect on the date which is 180 days after the date of enactment of 
this Act.

SEC. 604. REPEAL OF LIMIT ON AMOUNT OF PARTY EXPENDITURES ON BEHALF OF 
                    CANDIDATES IN GENERAL ELECTIONS.

  (a) Repeal of Limit.--Section 315(d) of the Federal Election Campaign 
Act of 1971 (2 U.S.C. 441a(d)) is amended--
          (1) in paragraph (1)--
                  (A) by striking ``(1) Notwithstanding any other 
                provision of law with respect to limitations on 
                expenditures or limitations on contributions, the 
                national committee'' and inserting ``Notwithstanding 
                any other provision of law with respect to limitations 
                on amounts of expenditures or contributions, a national 
                committee'',
                  (B) by striking ``the general'' and inserting 
                ``any'', and
                  (C) by striking ``Federal office, subject to the 
                limitations contained in paragraphs (2), (3), and (4) 
                of this subsection'' and inserting ``Federal office in 
                any amount''; and
          (2) by striking paragraphs (2), (3), and (4).
  (b) Conforming Amendments.--
          (1) Indexing.--Section 315(c) of such Act (2 U.S.C. 441a(c)) 
        is amended--
                  (A) in paragraph (1)(B)(i), by striking ``(d),''; and
                  (B) in paragraph (2)(B)(i), by striking ``subsections 
                (b) and (d)'' and inserting ``subsection (b)''.
          (2) Increase in limits for senate candidates facing wealthy 
        opponents.--Section 315(i) of such Act (2 U.S.C. 441a(i)(1)) is 
        amended--
                  (A) in paragraph (1)(C)(iii)--
                          (i) by adding ``and'' at the end of subclause 
                        (I),
                          (ii) in subclause (II), by striking ``; and'' 
                        and inserting a period, and
                          (iii) by striking subclause (III);
                  (B) in paragraph (2)(A) in the matter preceding 
                clause (i), by striking ``, and a party committee shall 
                not make any expenditure,'';
                  (C) in paragraph (2)(A)(ii), by striking ``and party 
                expenditures previously made''; and
                  (D) in paragraph (2)(B), by striking ``and a party 
                shall not make any expenditure''.
          (3) Increase in limits for house candidates facing wealthy 
        opponents.--Section 315A(a) of such Act (2 U.S.C. 441a--1(a)) 
        is amended--
                  (A) in paragraph (1)--
                          (i) by adding ``and'' at the end of 
                        subparagraph (A),
                          (ii) in subparagraph (B), by striking ``; 
                        and'' and inserting a period, and
                          (iii) by striking subparagraph (C);
                  (B) in paragraph (3)(A) in the matter preceding 
                clause (i), by striking ``, and a party committee shall 
                not make any expenditure,'';
                  (C) in paragraph (3)(A)(ii), by striking ``and party 
                expenditures previously made''; and
                  (D) in paragraph (3)(B), by striking ``and a party 
                shall not make any expenditure''.
  (c) Effective Date.--The amendments made by this section shall take 
effect January 1, 2006.

SEC. 605. CONSTRUCTION.

  No provision of this title, or amendment made by this title, shall be 
construed--
          (1) as approving, ratifying, or endorsing a regulation 
        promulgated by the Federal Election Commission;
          (2) as establishing, modifying, or otherwise affecting the 
        definition of political organization for purposes of the 
        Internal Revenue Code of 1986; or
          (3) as affecting the determination of whether a group 
        organized under section 501(c) of the Internal Revenue Code of 
        1986 is a political committee under section 301(4) of the 
        Federal Election Campaign Act of 1971.

SEC. 606. JUDICIAL REVIEW.

  (a) Special Rules for Actions Brought on Constitutional Grounds.--If 
any action is brought for declaratory or injunctive relief to challenge 
the constitutionality of any provision of this title or any amendment 
made by this title, the following rules shall apply:
          (1) The action shall be filed in the United States District 
        Court for the District of Columbia and shall be heard by a 3-
        judge court convened pursuant to section 2284 of title 28, 
        United States Code.
          (2) A copy of the complaint shall be delivered promptly to 
        the Clerk of the House of Representatives and the Secretary of 
        the Senate.
          (3) A final decision in the action shall be reviewable only 
        by appeal directly to the Supreme Court of the United States. 
        Such appeal shall be taken by the filing of a notice of appeal 
        within 10 days, and the filing of a jurisdictional statement 
        within 30 days, of the entry of the final decision.
          (4) It shall be the duty of the United States District Court 
        for the District of Columbia and the Supreme Court of the 
        United States to advance on the docket and to expedite to the 
        greatest possible extent the disposition of the action and 
        appeal.
  (b) Intervention by Members of Congress.--In any action in which the 
constitutionality of any provision of this title or any amendment made 
by this title is raised (including but not limited to an action 
described in subsection (a)), any Member of the House of 
Representatives (including a Delegate or Resident Commissioner to 
Congress) or Senate shall have the right to intervene either in support 
of or opposition to the position of a party to the case regarding the 
constitutionality of the provision or amendment. To avoid duplication 
of efforts and reduce the burdens placed on the parties to the action, 
the court in any such action may make such orders as it considers 
necessary, including orders to require intervenors taking similar 
positions to file joint papers or to be represented by a single 
attorney at oral argument.
  (c) Challenge by Members of Congress.--Any Member of Congress may 
bring an action, subject to the special rules described in subsection 
(a), for declaratory or injunctive relief to challenge the 
constitutionality of any provision of this title or any amendment made 
by this title.
  (d) Applicability.--
          (1) Initial claims.--With respect to any action initially 
        filed on or before December 31, 2008, the provisions of 
        subsection (a) shall apply with respect to each action 
        described in such subsection.
          (2) Subsequent actions.--With respect to any action initially 
        filed after December 31, 2008, the provisions of subsection (a) 
        shall not apply to any action described in such subsection 
        unless the person filing such action elects such provisions to 
        apply to the action.

SEC. 607. SEVERABILITY.

  If any provision of this title or any amendment made by this title, 
or the application of a provision or amendment to any person or 
circumstance, is held to be unconstitutional, the remainder of this 
title and the amendments made by this title, and the application of the 
provisions and amendments to any person or circumstance, shall not be 
affected by the holding.

              TITLE VII--FORFEITURE OF RETIREMENT BENEFITS

SEC. 701. LOSS OF PENSIONS ACCRUED DURING SERVICE AS A MEMBER OF 
                    CONGRESS FOR ABUSING THE PUBLIC TRUST.

  (a) Civil Service Retirement System.--Section 8332 of title 5, United 
States Code, is amended by adding at the end the following:
  ``(o)(1) Notwithstanding any other provision of this subchapter, the 
service of an individual finally convicted of an offense described in 
paragraph (2) shall not be taken into account for purposes of this 
subchapter, except that this sentence applies only to service rendered 
as a Member (irrespective of when rendered). Any such individual (or 
other person determined under section 8342(c), if applicable) shall be 
entitled to be paid so much of such individual's lump-sum credit as is 
attributable to service to which the preceding sentence applies.
  ``(2)(A) An offense described in this paragraph is any offense 
described in subparagraph (B) for which the following apply:
          ``(i) Every act or omission of the individual (referred to in 
        paragraph (1)) that is needed to satisfy the elements of the 
        offense occurs while the individual is a Member.
          ``(ii) Every act or omission of the individual that is needed 
        to satisfy the elements of the offense directly relates to the 
        performance of the individual's official duties as a Member.
          ``(iii) The offense is committed after the date of enactment 
        of this subsection.
  ``(B) An offense described in this subparagraph is only the 
following, and only to the extent that the offense is a felony under 
title 18:
          ``(i) An offense under section 201 of title 18 (bribery of 
        public officials and witnesses).
          ``(ii) An offense under section 219 of title 18 (officers and 
        employees acting as agents of foreign principals).
          ``(iii) An offense under section 371 of title 18 (conspiracy 
        to commit offense or to defraud United States) to the extent of 
        any conspiracy to commit an act which constitutes an offense 
        under clause (i) or (ii).
  ``(3) An individual convicted of an offense described in paragraph 
(2) shall not, after the date of the final conviction, be eligible to 
participate in the retirement system under this subchapter or chapter 
84 while serving as a Member.
  ``(4) The Office of Personnel Management shall prescribe any 
regulations necessary to carry out this subsection. Such regulations 
shall include--
          ``(A) provisions under which interest on any lump-sum payment 
        under the second sentence of paragraph (1) shall be limited in 
        a manner similar to that specified in the last sentence of 
        section 8316(b); and
          ``(B) provisions under which the Office may provide for--
                  ``(i) the payment, to the spouse or children of any 
                individual referred to in the first sentence of 
                paragraph (1), of any amounts which (but for this 
                clause) would otherwise have been nonpayable by reason 
                of such first sentence, but only to the extent that the 
                application of this clause is considered necessary 
                given the totality of the circumstances; and
                  ``(ii) an appropriate adjustment in the amount of any 
                lump-sum payment under the second sentence of paragraph 
                (1) to reflect the application of clause (i).
  ``(5) For purposes of this subsection--
          ``(A) the term `Member' has the meaning given such term by 
        section 2106, notwithstanding section 8331(2); and
          ``(B) the term `child' has the meaning given such term by 
        section 8341.''.
  (b) Federal Employees' Retirement System.--Section 8411 of title 5, 
United States Code, is amended by adding at the end the following:
  ``(i)(1) Notwithstanding any other provision of this chapter, the 
service of an individual finally convicted of an offense described in 
paragraph (2) shall not be taken into account for purposes of this 
chapter, except that this sentence applies only to service rendered as 
a Member (irrespective of when rendered). Any such individual (or other 
person determined under section 8424(d), if applicable) shall be 
entitled to be paid so much of such individual's lump-sum credit as is 
attributable to service to which the preceding sentence applies.
  ``(2) An offense described in this paragraph is any offense described 
in section 8332(o)(2)(B) for which the following apply:
          ``(A) Every act or omission of the individual (referred to in 
        paragraph (1)) that is needed to satisfy the elements of the 
        offense occurs while the individual is a Member.
          ``(B) Every act or omission of the individual that is needed 
        to satisfy the elements of the offense directly relates to the 
        performance of the individual's official duties as a Member.
          ``(C) The offense is committed after the date of enactment of 
        this subsection.
  ``(3) An individual finally convicted of an offense described in 
paragraph (2) shall not, after the date of the conviction, be eligible 
to participate in the retirement system under this chapter while 
serving as a Member.
  ``(4) The Office of Personnel Management shall prescribe any 
regulations necessary to carry out this subsection. Such regulations 
shall include--
          ``(A) provisions under which interest on any lump-sum payment 
        under the second sentence of paragraph (1) shall be limited in 
        a manner similar to that specified in the last sentence of 
        section 8316(b); and
          ``(B) provisions under which the Office may provide for--
                  ``(i) the payment, to the spouse or children of any 
                individual referred to in the first sentence of 
                paragraph (1), of any amounts which (but for this 
                clause) would otherwise have been nonpayable by reason 
                of such first sentence, but only to the extent that the 
                application of this clause is considered necessary 
                given the totality of the circumstances; and
                  ``(ii) an appropriate adjustment in the amount of any 
                lump-sum payment under the second sentence of paragraph 
                (1) to reflect the application of clause (i).
  ``(5) For purposes of this subsection--
          ``(A) the term `Member' has the meaning given such term by 
        section 2106, notwithstanding section 8401(20); and
          ``(B) the term `child' has the meaning given such term by 
        section 8341.''.

    The Chairman. And I would like to at this time recognize my 
Ranking Member, Ms. Millender-McDonald, for her opening 
statement. Then we will proceed with other members.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman, 
and thank you for scheduling this markup. I think it is 
important that we bring before the American people a bill that 
they have been waiting on. And H.R. 4975 is that such bill.
    I just want to say, Mr. Chairman, that I have always 
enjoyed working with you. And while our policy may disagree 
from time to time, I want to let you know that I have enormous 
respect for you and for your fairness and even-handedness in 
dealing with this side of the aisle. And so I appreciate your 
fairness.
    Mr. Chairman, on March 16th, the Republican leadership 
introduced its Lobbying Accountability and Transparency Act of 
2006, which is H.R. 4975.
    The bill is being marked up here today, but it is being 
marked up not only in our committee, but in four other 
committees which are the Rules Committee, the Judiciary, 
Government Reform, and Ethics. Thus, no single committee is in 
a position to address the need for a comprehensive and 
coordinated solution to this multifaceted lobbying reform 
issue.
    I further understand, Mr. Chairman, that the bill has been 
scheduled for floor action the first week that we come back 
from recess. Is that your understanding?
    The Chairman. That is my current understanding, yes.
    Ms. Millender-McDonald. Thank you Mr. Chairman.
    So the bill before us today, as we see it, first contains 
new lobbyist disclosure requirements similar to those in the 
H.R. 4682, the Honest Leadership and Open Government Act, which 
was introduced in January by Leader Pelosi with 162 Democrats. 
However, the Republican leadership bill, Mr. Chairman, does not 
require disclosure of the names of Members lobbied, nor does it 
contain any grassroots disclosure provisions.
    The bill further maintains the current 1-year revolving 
door requirement which, in my opinion, really should be 
increased by 2 years.
    And this bill imposes a moratorium on privately funded 
travel until the end of the 109th Congress, at which time the 
Ethics Committee is supposed to report recommendations on how 
to deal with the travel issue.
    Now, this is the same committee, Mr. Chairman, which has 
been stalled by partisanship disputes over the last year and a 
quarter, and it has not met nor has it scheduled my hearings. 
But the bill permits and--prohibits, I should say--registered 
lobbyists from accompanying Members on corporate flights. 
However, it fails to require payment of the full charter fare, 
nor does it require a disclosure of a passenger list, as I 
perceive it should.
    It contains earmark disclosure requirements and prohibits 
Members convicted of bribery from receiving a congressional 
pension, while permitting OPM to pay that foregone pension to 
the spouse and children if circumstances warrant that.
    Now, Mr. Chairman, I know many of these concerns fall 
outside our committee's jurisdiction and purview. However, I 
believe it is important for everyone to understand how our 
committee's small and incremental legislative action fits into 
the larger picture of the Republican leadership reform effort.
    Now, in my opinion, Mr. Chairman, this bill is greatly 
scaled down from efforts for which it really needs to be 
focused. And I am concerned that when passed by the House, the 
American public will think that we have actually done something 
substantial and substantive about the culture in the House.
    Perhaps the Republican leadership hopes that this reform 
effort will diminish the demands for real reform and that, over 
time, the corruption will be forgotten. The requirements for 
real reform will go away perhaps is what you are thinking, I 
suppose. But I am not sure that things will go away, Mr. 
Chairman. And for that reason, the bill is watered down from 
its original and initial proposal.
    Our constituents and our colleagues are demanding bold 
action, bold action that strikes at the heart of congressional 
corruption. A temporary moratorium on travel and a few lobbyist 
disclosure provisions are incredibly inadequate Republican 
leadership response to the clear evidence of massive corruption 
that is among us.
    In addition to an immediate and full investigation by the 
Ethics Committee, any serious reform plan, in my view, Mr. 
Chairman, must have a complete ban on gifts and travel provided 
by lobbyists and organizations that retain or employ them.
    It should have a requirement that Members pay the full 
charter cost of corporate-provided air travel; tough new 
reporting provisions and criminal penalties to eliminate 
cronyism and corruption in government employment and 
contracting; criminal penalties for the kind of misconduct that 
lies at the heart of these corruptions; a return to fair and 
open debating and voting procedures on the House floor and in 
conference committees; radically new lobbyist disclosure 
requirements, including the names of Members and staff 
contacted, and a listing of parties and events held to honor 
Members; a long 2-year revolving-door prohibition; and 
earmarked transparency provisions that include a prohibitionon 
tying earmarks to votes.
    As I said before, the Democratic Leader, along with myself 
and 62 other Democrats, introduced H.R. 4682 back in January. 
The Honest Leadership and Open Government Act contains these 
provisions and other additional provisions which constitute 
real reform to drain the swamp of corruption we are swimming in 
today.
    As you said, Mr. Chairman, I do plan to offer amendments to 
the bill before us which, if adopted, would take a small step 
in moving this bill in the direction of real reform.
    But I will not support this inadequate bill, even if my 
amendments are adopted, unless and until it contains real and 
substantive reform aimed at the heart of the culture of this 
House.
    Furthermore, the procedure being used to markup this bill 
in five different committees makes it nearly impossible for us 
to do much in our committee to address this bill's serious 
deficiencies.
    Mr. Chairman, I again appreciate your bringing this forth, 
but I just wanted to lay out what we think is real reform in 
terms of bringing forth a real transparency and accountability-
type piece of legislation on lobbying. And I thank you, Mr. 
Chairman.
    [The information follows:]
    The Chairman. Mr. Ney, do you have an opening statement?
    Mr. Ney. Thank you, Mr. Chairman. I just wanted to--I will 
be brief in my opening statement. I want to point out a couple 
of things that I think the committee embarked on and did, and 
some of the things that we didn't get done and I wish we would 
have.
    The House Administration Committee Funding proposal for the 
109th Congress gave, I think it was 43 percent increase to the 
Ethics Committee, the largest in the history, probably, of 
Congress, and all of you at this dais supported it. I think 
that was a good thing. And I wish the Ethics Committee would 
get constituted quicker. And hopefully the money will be used 
for an increased staff, as they said it would, and will be to 
help with members and staff for Ethics education. So we did 
that component, which I think is part of fixing the system 
here.
    I think Marty Meehan introduced a bill, which I know I 
publicly said I would take a look at and work with Marty Meehan 
on. Nothing came of that. I wish--actually, I think it was 
probably well over a year ago--something would have come about 
on that bill so we could have had a discussion on that end. But 
I thought Marty Meehan had some good ideas. For example the 2-
year revolving door ban, which the Ranking Member has 
mentioned, I think is a good idea. It is not in this bill. But 
I think this bill is a good foundation to start.
    So I publicly support the need to strengthen the 
transparency and the accountability and enforcement of the 
rules governing dealings of Members of Congress with members of 
the lobbying communities. And these are issues which are 
controversial, as well I know.
    And they have to be addressed by this House. And we have 
got to do it in, I think, a bipartisan manner, and to make it 
clear that nobody is above the law; and, of course, make it 
clear we have institutions that decide who has done wrong or 
not. One of these institutions is the Ethics Committee. The 
other is the Department of Justice.
    But I think that a couple programs we started--and other 
good steps including the lobbyist signature resolution. People 
howled about it. They didn't want to get the electronic digital 
signature. But it is an electronic filing, which allows you to 
know it was filed, instead of the older paper system. Our 
Clerk, Jeff Trandahl, did that and I want to thank him. At the 
time I was Chairman, the Ranking Member and staff was 
supportive of doing that change. That is a good change.
    Another thing we embarked on a year ago to avoid the ``he 
said, she said; who asked for the trip, who didn't ask for the 
trip; who paid for the trip, who didn't pay for the trip'' 
would have been electronic filing--and we had discussions about 
that change. Requests for trips, for example, for private 
travel. And that did not get a warm welcome from either side of 
the aisle in the Ethics Committee. And they have a certain 
amount of jurisdiction over it.
    I still hope they look at that. I don't know if that 
component is in here. I don't think it is. I think that should 
be looked at.
    So I think some steps have been taken, maybe not major, but 
some steps have been taken by the committee, and I want to 
applaud everyone for doing it.
    But I also want to commend the Chairman for bringing this 
bill forward--and the leadership of the House--and have this 
markup today. And, of course, we know what it does. It 
increases penalties and reforms congressional travel. I think 
about 110 Members' travel is being questioned today. Do I think 
that some Members that never filed did it on purpose? No. They 
forget to file these trips. But we have a system that is 
broken, a system that needs transparency, a system that needs 
to be fixed so people aren't put into these binds so that 
everything is laid out on the table.
    So I think the provisions you have got in the bill are 
moving towards strengthening the legislative process, 
thetransparency, and also maybe the faith of the people in our 
institutions.
    So they are sensible reforms. And for that reason I think 
we will have rigorous debate as the process goes on. But I 
appreciate you bringing the bill forth.
    The Chairman. Thank you.
    Mr. Brady, do you have any opening? No.
    Mr. Mica has no statement.
    Mr. Doolittle.
    Mr. Doolittle. No statement, Mr. Chairman.
    The Chairman. Mr. Reynolds. Ms. Miller.
    Mrs. Miller. No.
    The Chairman. Just a brief statement from me. I appreciate 
the effort that everyone here has put into this issue. I think 
it is an extremely important issue. I appreciate the offerings 
of the Minority. I will discuss those in a minute and point out 
how they actually weaken the bill. But I do appreciate their 
interest in and effort on this.
    I also want to just take a moment to thank Mr. Ney for his 
hard work in chairing this committee for a number of years and 
for the leadership he provided in passing, I think, what is the 
most comprehensive voting bill that has ever been passed by the 
Congress. He shepherded that to the House and the Senate, got 
it passed into law, and has done a number of other innovative 
things.
    And, Mr. Ney, I just want to express my appreciation and 
the Committee's appreciation for all the good work you do in 
this post.
    Mr. Ney. Well, thank you, Mr. Chairman.
    Ms. Millender-McDonald. Mr. Chairman, may I please add to 
what you have just said?
    The Chairman. Yes you may.
    Ms. Millender-McDonald. In acknowledging the extraordinary 
leadership of Chairman Ney during my short stint as the Ranking 
Member, but even beyond that, and before that as a member, I 
extend the same type of comments that I extended to you. Both 
of you have been enormously fair and even-handed.
    And, Mr. Ney, I told millions of people that this morning 
on Washington Journal, so it doesn't just stop in this room. It 
goes beyond this Beltway.
    But we thank you so much for your leadership and your great 
direction in the way you have guided this committee during your 
stay.
    Mr. Ney. Mr. Chairman, not to hold the procedures up, I 
want to thank you all for your kind comments. And I really 
appreciate your leadership, Mr. Chairman, in working with you. 
And as I look around at the dais, I think there are a lot of 
fine people who did a lot of fine things for this institution 
to keep it going.
    I would say one thing. We will beat Michigan next fall--as 
an Ohio State grad. The second thing, I sincerely appreciate 
your comments. If I go before you, could you do my eulogy?
    Ms. Millender-McDonald. You know what we are going to say.
    Mr. Ney. Thank you.
    The Chairman. I am a terrible eulogist, especially if you 
beat our football team. But we are assuming you won't do that 
again.
    The Chair lays before the Committee the bill H.R. 4975. Is 
there any discussion or amendment?
    Ms. Millender-McDonald. Mr. Chairman, I have an amendment. 
I have several amendments. Do I comment at this point?
    The Chairman. You may proceed.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. Mr. 
Chairman, the first amendment is to section 301, title III of 
the bill at the desk.
    [The information follows:]

                         Amendment to H.R. 4975

                   Offered by Ms. Millender-McDonald

  Page 14, strike lines 4 through 10 and insert the following:

SEC. 301. RESTRICTING CONGRESSIONAL TRAVEL AND GIFTS.

  (a) Ban on Gifts From Lobbyists.--[based on section 301 of HR 4682] 
Notwithstanding clause 5 of Rule XXV of the Rules of the House of 
Representatives, a Member, Delegate, Resident Commissioner, officer, or 
employee of the House may not knowingly accept a gift from a registered 
lobbyist or agent of a foreign principal or from a nongovernmental 
organization that retains or employs registered lobbyists or agents of 
a foreign principal except as provided in paragraphs (2)(B) or (3) of 
such clause.
  (b) Prohibiting Acceptance of Travel From Nongovernmental 
Organizations Employing Lobbyists.--[based on section 302 of HR 4682] 
Notwithstanding clause 5(b)(1)(A) of Rule XXV of the Rules of the House 
of Representatives, a reimbursement (including payment in kind) to a 
Member, Delegate, Resident Commissioner, officer, or employee of the 
House from a nongovernmental organization that retains or employs 
registered lobbyists or agents of a foreign principal shall not be 
considered as a reimbursement to the House and shall be considered a 
gift prohibited by such clause.
  (c) Prohibiting Lobbyist Organization and Participation in 
Congressional Travel.--[based on section 303(a) of HR 4682] 
Notwithstanding clause 5 of Rule XXV of the Rules of the House of 
Representatives--
          (1) a Member, Delegate, Resident Commissioner, officer, or 
        employee of the House may not accept transportation or lodging 
        on any trip that is planned, organized, requested, arranged, or 
        financed in whole or in part by a lobbyist or agent of a 
        foreign principal, or in which a lobbyist participates; and
          (2) before a Member, Delegate, Resident Commissioner, 
        officer, or employee of the House may accept transportation or 
        lodging otherwise permissible under such clause from any 
        person, such individual shall obtain 30 days before such trip a 
        written certification from such person (and provide a copy of 
        such certification to the Committee on Standards of Official 
        Conduct) that--
                  (A) the trip was not planned, organized, requested, 
                arranged, or financed in whole, or in part by a 
                registered lobbyist or agent of a foreign principal and 
                was not organized at the request of a registered 
                lobbyist or agent of a foreign principal;
                  (B) registered lobbyists will not participate in or 
                attend the trip; and
                  (C) the person did not accept, from any source, funds 
                specifically earmarked for the purpose of financing the 
                travel expenses.
  (d) Disclosure of Meetings and Events Attended During Congressional 
Travel.--[based on section 303(b) of HR 4682]In addition to the 
information required to be included in a disclosure made under 
subparagraph (1)(A) of clause 5(b) of the Rules of the House of 
Representatives with respect to travel by an employee of the House, the 
disclosure shall include a description of meetings and events attended 
during such travel, except when disclosure of such information is 
deemed by the Member or supervisor under whose direct supervision the 
employee works to jeopardize the safety of an individual or otherwise 
interfere with the official duties of the Member, Delegate, Resident 
Commissioner, officer, or employee.
  (e) Definitions.--In this section, the terms ``registered lobbyist'' 
and ``agent of a foreign principal'' have the meanings given such terms 
in clause 5(e) of Rule XXV of the Rules of the House of 
Representatives.

    Ms. Millender-McDonald. It is an amendment that bans travel 
arrangements that have been arranged for, paid for and provided 
by lobbyists and organizations that retain or employ lobbyists.
    It prohibits lobbyists from funding, arranging, planning or 
participating in congressional travel.
    Thank you, Mr. Chairman.
    The Chairman. Would you wish to describe it any further?
    Ms. Millender-McDonald. I think that is indeed in detail 
and that is the extent of it.
    The Chairman. Thank you. I will state my opposition to the 
amendment. We made it very clear in H.R. 4975 that all travel 
will be banned to the end of this Congress. We gave a specific 
assignment, or will give a specific assignment through the 
legislation, to the Committee on Standards of Official Conduct 
to review all our travel policies and make recommendations on 
necessary changes. It is well known that the Ethics Committee 
has not accomplished much this year. But we believe if we give 
them this task, they will certainly take it seriously and 
produce a decision by the end of the year.
    Lobbyists, I might comment, are already prohibited from 
paying travel under rule 25, clause 5(b)(1)(a). We don't need 
to add any redundant new provisions to prohibit what is already 
prohibited. It will not accomplish anything and will not 
address the process problems that we have.
    So I would argue that, given the basic nature of H.R. 4975, 
as well as preexisting legislation, the amendment is actually a 
weakening amendment because it would continue to allow 
privately funded travel, which we are promoting to ban until 
the Ethics Committee comes forward with new recommendations.
    Any further discussions? Mr. Reynolds is recognized for 5 
minutes.
    Mr. Reynolds. Mr. Chairman, I wholeheartedly concur this is 
a weakening amendment to the intent of the legislation that I 
am a cosponsor to, which calls for the Ethics Committee, no 
later than December 15, to bring back its recommendations to 
the Rules Committee.
    And my recollection in our body is that we in the past have 
asked the Ethics Committee to begin to look at the potential of 
preapproving travel, which would be a great assistance to all 
of us if there was a structured format.
    This amendment, while addressing some things that are 
already in our House rules, potentially offers maybe a statute 
change of the same thing we abide by, that we are not to travel 
with lobbyists.
    The Chairman. Gentleman's time has expired. Does anyone 
else wish to comment?
    Hearing no further comments, the question is on the 
amendment.
    Those in favor of the amendment will say aye.
    Those opposed will say nay.
    The Chairman. No. The amendment is not adopted.
    Ms. Millender-McDonald. Mr. Chairman, I ask for a recorded 
vote on this.
    The Chairman. The Clerk will call the tally.
    The Clerk. Mr. Ney.
    Mr. Ney. No.
    Mr. Mica.
    [No response.]
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. No.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. No.
    The Clerk. Mrs. Miller.
    Mrs. Miller. No.
    The Clerk. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Yes.
    The Clerk. Mr. Brady.
    Mr. Brady. Yes.
    The Clerk. Ms. Lofgren.
    [No response.]
    The Clerk. Chairman Ehlers.
    The Chairman. No.
    The clerk will report.
    The Clerk. Five to two.
    The Chairman. The amendment is defeated.
    Is there another amendment?
    Ms. Millender-McDonald. Yes, Mr. Chairman, thank you. The 
amendment that--a second amendment is an amendment to title IV 
of the bill at the desk.
    [The information follows:]

                         Amendment to H.R. 4975

                   Offered by Ms. Millender-McDonald

  Page 17, strike line 3 and all that follows through page 18, line 20 
and insert the following:

SEC. 401. OFFICE OF PUBLIC INTEGRITY.

  (a) Establishment.--There is established within the Office of 
Inspector General of the House of Representatives an office to be known 
as the ``Office of Public Integrity'' (referred to in this section as 
the ``Office''), which shall be headed by a Director of Public 
Integrity (hereinafter referred to as the ``Director'').
  (b) Office.--The Office shall have access to all lobbyists' 
disclosure information received by the Clerk under the Lobbying 
Disclosure Act of 1995 and conduct such audits and investigations as 
are necessary to ensure compliance with the Act.
  (c) Referral Authority.--The Office shall have authority to refer 
violations of the Lobbying Disclosure Act of 1995 to the Committee on 
Standards of Official Conduct and the Department of Justice for 
disciplinary action, as appropriate.
  (d) Director.--
          (1) In general.--The Director shall be appointed by the 
        Inspector General of the House. Any appointment made under this 
        subsection shall be made without regard to political 
        affiliation and solely on the basis of fitness to perform the 
        duties of the position. Any person appointed as Director shall 
        be learned in the law, a member of the bar of a State or the 
        District of Columbia, and shall not engage in any other 
        business, vocation, or employment during the term of such 
        appointment.
          (2) Staff.--The Director shall hire such additional staff as 
        are required to carry out this section, including investigators 
        and accountants.
  (e) Audits and Investigations.--
          (1) In general.--The Office shall audit lobbying 
        registrations and reports filed pursuant to the Lobbying 
        Disclosure Act of 1995 to determine the extent of compliance or 
        non-compliance with the requirements of such Act by lobbyists 
        and their clients.
          (2) Evidence of non-compliance.--If in the course of an audit 
        conducted pursuant to the requirements of paragraph (1), the 
        Office obtains information indicating that a person or entity 
        may be in non-compliance with the requirements of the Lobbying 
        Disclosure Act of 1995, the Office shall refer the matter to 
        the United States Attorney for the District of Columbia.
  (f) Conforming Amendment.--Section 8 of the Lobbying Disclosure Act 
of 1995 (2 U.S.C. 1607) is amended by striking subsection (c).
  (g) Authorization of Appropriations.--There are authorized to be 
appropriated in a separate account such sums as are necessary to carry 
out this section.

    Ms. Millender-McDonald. And this amendment is an amendment 
to the amendment in the nature of a substitute for all of title 
IV.
    It establishes a new Office of Public Integrity within the 
Office of Inspector General of the House and charges the Office 
with auditing and investigating compliance with the lobbying 
disclosure rules, and, if necessary, referring matters to the 
United States attorney.
    And that is it, Mr. Chairman.
    The Chairman. Will the gentlewoman yield back the balance 
of her time?
    Ms. Millender-McDonald. I yield back the balance of my 
time, yes.
    The Chairman. This particular amendment I think also is a 
weakening amendment. Frankly, it doesn't make a lot of sense 
because what is written in the base bill H.R. 4975 provides 
precisely the same thing but uses a House Inspector General, 
under its current authority and responsibility, to take care of 
the oversight of the lobbyist disclosures.
    Adding a new Office of Public Integrity, even though it 
would make use of the Inspector General, just adds another 
layer to the operation. It will increase the cost. There is no 
substantive difference between the two.
    So I urge that we defeat the amendment. Is there any other 
discussion? Hearing none----
    Ms. Millender-McDonald. Mr. Chairman, I just want for the 
record to reflect that what the Dreier bill does is split the 
duties of the IG inside and outside of the House and really 
gives, in my opinion, the authority that should not be with the 
IG placed in there, in the Office of the IG. And this is why I 
feel and we feel and Leader Pelosi feels that the Office of an 
Inspector General is not the place for it. It should be a new 
Office of Public Integrity. And thank you so much.
    The Chairman. Is there any further discussion on the 
amendment?
    If not, we will call for a vote.
    All those in favor say aye.
    All those opposed, say nay.
    The amendment is defeated.
    Ms. Millender-McDonald. Mr. Chairman, again I ask for a 
recorded vote.
    The Chairman. The clerk will call the roll.
    The Clerk. Mr. Ney.
    Mr. Ney. No.
    The Clerk. Mr. Mica.
    [No response.]
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. No.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. No.
    The Clerk. Mrs. Miller.
    Mrs. Miller. No.
    The Clerk. Ms. Millender-McDonald.
    Mrs. Millender-McDonald. Aye.
    The Clerk. Mr. Brady.
    Mr. Brady. Aye.
    The Clerk. Ms. Lofgren.
    [No response.]
    The Clerk. Chairman Ehlers.
    The Chairman. No.
    The Clerk will report.
    The Clerk. Favorable, two to five.
    The Chairman. The amendment fails.
    Ms. Millender-McDonald. Mr. Chairman, one more amendment 
here.
    The Chairman. Yes.
    Ms. Millender-McDonald. This amendment is to title VI of 
the bill at the desk.
    [The information follows:]

                         AMENDMENT TO H.R. 4975


                            Strike Title VI

    Ms. Millender-McDonald. And this amendment simply strikes 
the entire title dealing with 527s because the House did pass 
the 527 bill out last night.
    And I yield back the balance of my time.
    The Chairman. I wonder if you could explain it a little 
more completely.
    Ms. Millender-McDonald. The 527 components or provisions of 
the lobbying bill was taken out; was taken out and presented on 
the floor as a stand-alone. And for that reason, it seems to me 
like we should not have that placed in this bill that we are 
now marking up because we have already engaged in and passed 
out of the House the provisions of the 527. And, therefore, to 
me it is redundant to have it here.
    The Chairman. I thank the gentlelady for her comments. I 
would simply point out the Rules Committee chairperson 
introduced this bill. All of the various activities of the 
various committees will go back to the Rules Committee. They 
will prepare a final version of the bill that will take this 
into account. It is simply unnecessary for us to take any 
further action.
    In view of the passage of this yesterday, the Rules 
Committee will automatically eliminate it.
    Ms. Millender-McDonald. In light of the fact, Mr. Chairman, 
that 527s are under our purview? Aren't they?
    The Chairman. Yes, that is why.
    Ms. Millender-McDonald. Yet Rules Committee has to do that?
    The Chairman. No. No. The Rules Committee has the 
jurisdiction to do that. They will make substantial changes in 
this bill as it goes through the Rules Committee.
    Ms. Millender-McDonald. Including 527s?
    The Chairman. Did you wish to pursue this through a vote 
or----
    Ms. Millender-McDonald. In getting counsel, Mr. Chairman, 
again I thought 527s were under our purview. It has nothing to 
do with the Rules Committee. And therefore the action should be 
taken in this committee. Sir--if I can just finish, Mr. 
Reynolds.
    And therefore we should dispose of this in this committee 
and not have it go back to Rules where it is not supposed to 
be. And so I will keep the amendment as I have stated it.
    The Chairman. I would simply state we did dispose of the 
issue yesterday on the floor of the House of Representatives. 
The Rules Committee automatically will take that into account.
    Ms. Millender-McDonald. There is no further need for the 
bill.
    Mr. Reynolds. Just for a point of information. Some on the 
Ways and Means Committee will feel they have jurisdiction as 
well, so there are a number of multiple jurisdictional 
questions on 527s. And I think your decision to have this 
contained and sent back to the Rules Committee is more than 
appropriate.
    The Chairman. Any further comment? Mr. Doolittle.
    Mr. Doolittle. Well, while we passed the bill off the floor 
of the House yesterday, it is not yet law; and we have no way 
of knowing if it will become law. So are you saying that--I 
mean, we have 527s in the law right now, and they are able to 
do what they are able to do.
    So, since the change we made yesterday is just the House's 
version of this, wouldn't we be legislating still on 527s until 
and unless the law is actually changed?
    The Chairman. The House has acted. It remains in the bill. 
We will call the vote on this question.
    All those in favor of the amendment will vote aye.
    Those opposed, no.
    The noes have it and the amendment is defeated.
    Ms. Millender-McDonald. I would like to have a recorded 
vote on this, Mr. Chairman.
    The Chairman. The clerk will call the roll.
    The Clerk. Mr. Ney.
    Mr. Ney. No.
    The Clerk. Mr. Mica.
    [No response.]
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. No.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. No.
    The Clerk. Mrs. Miller.
    Mrs. Miller. No.
    The Clerk. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Aye.
    The Clerk. Mr. Brady.
    Mr. Brady. Aye.
    The Clerk. Ms. Lofgren.
    [No response.]
    The Clerk. Chairman Ehlers.
    The Chairman. No.
    The Clerk will report.
    The Clerk. Favor, two to five.
    The Chairman. The amendment fails. Seeing no further 
amendments, the question is now on the bill.
    Those in favor to reporting out the bill will say aye.
    Those opposed will say nay.
    The bill is reported out favorably.
    Ms. Millender-McDonald. I would like to have a recorded 
vote on this bill, Mr. Chairman.
    The Chairman. Clerk will call the roll.
    The Clerk. Mr. Ney.
    Mr. Ney. Yes.
    The Clerk. Mr. Mica.
    [No response.]
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. Aye.
    The Clerk. Mrs. Miller.
    Mrs. Miller. Yes.
    The Clerk. Ms. Millender-McDonald.
    Ms. Millender-McDonald. No.
    The Clerk. Mr. Brady.
    Mr. Brady. No.
    The Clerk. Ms. Lofgren.
    [No response.]
    The Clerk. Chairman Ehlers.
    The Chairman. Yes.
    Clerk will report the vote.
    The Clerk. Passed five to two.
    The Chairman. The motion is passed. The Chair recognizes 
Mr. Ney for the purpose of offering a motion.
    Mr. Ney. Mr. Chairman, I do now move that the committee 
favorably report the bill to the House.
    The Chairman. The question is on the motion. Those in favor 
will say aye.
    Those opposed will say nay.
    The motion is approved.
    Ms. Millender-McDonald. Mr. Chairman, I would like to have 
a recorded vote on this.
    The Chairman. The clerk will call the roll.
    Ms. Millender-McDonald. Don't you know the routine by now?
    The Chairman. I was hoping we could slip through this.
    The Clerk. Mr. Ney.
    Mr. Ney. Yes.
    The Clerk. Mr. Mica.
    [No response.]
    The Clerk. Mr. Doolittle.
    Mr. Doolittle. Aye.
    The Clerk. Mr. Reynolds.
    Mr. Reynolds. Aye.
    The Clerk. Mrs. Miller.
    Mrs. Miller. Aye.
    The Clerk. Ms. Millender-McDonald.
    Ms. Millender-McDonald. No.
    The Clerk. Mr. Brady.
    Mr. Brady. No.
    The Clerk. Ms. Lofgren.
    [No response.]
    The Clerk. Chairman Ehlers.
    The Chairman. Aye.
    The clerk will give the tally.
    The Clerk. Passed, five to two.
    The Chairman. The motion is passed five to two.
    The motion is agreed to on H.R. 4975, as amended, as 
reported favorably to the House. I ask unanimous consent that 
members have seven legislative days for statements and 
materials to be entered into the appropriate place in the 
record. Without objection, the material will be so entered.
    Ms. Millender-McDonald. Mr. Chairman.
    The Chairman. I ask unanimous consent that staff be 
authorized to make technical and conforming changes on all 
matters considered by the Committee in today's meeting. Without 
objection, so ordered.
    Yes, I recognize the gentlelady.
    Ms. Millender-McDonald. One more time with you. Pursuant to 
clause 2(1) of rule 11, I am requesting not less than 2 
additional calendar days, as provided by the rules, to submit 
Minority view to accompany the committee's report on this bill.
    The Chairman. Without objection, so ordered.
    Having no further business before us today, the Committee 
is hereby be adjourned.
    [Whereupon, at 2:42 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
